         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report


       Need Continues for a
       Strategic Plan to Protect
       Children’s Health
       Report No. 10-P-0095

       April 5, 2010
Report Contributors:                            Laurie Adams
                                                Daniel Carroll
                                                Ganesa Curley
                                                Jerri Dorsey
                                                Jeffrey Harris




Abbreviations

EPA          U.S. Environmental Protection Agency
GPRA         Government Performance Results Act
MATS         Management Audit Tracking System
OCHP         Office of Children’s Health Protection
OCHPEE       Office of Children’s Health Protection and Environmental Education
OIG          Office of Inspector General




Cover photos:   Photos courtesy EPA.
                       U.S. Environmental Protection Agency 	                                              10-P-0095
                                                                                                         April 5, 2010
                       Office of Inspector General


                       At a Glance
                                                                          Catalyst for Improving the Environment

Why We Did This Review              Need Continues for a Strategic Plan to Protect
We initiated this review to         Children’s Health
evaluate the status of corrective
actions taken by the U.S.            What We Found
Environmental Protection
Agency (EPA) in response to         Five years after providing OCHP with recommendations related to the strategic
an Office of Inspector General      and annual planning processes, agreed-to corrective actions have not been
report on the EPA’s Office of       completed. According to OCHP, which is now the Office of Children’s Health
Children’s Health Protection        Protection and Environmental Education (OCHPEE), corrective actions have
(OCHP) issued in 2004.              not been implemented due to constant turnover in office directors, one of whom
                                    claimed that the corrective actions were completed prior to closing the
Background                          recommendations. If these corrective actions were implemented, OCHPEE
                                    would be able to demonstrate, on an annual basis, its impact on the protection
OCHP was established in 1997        of children’s health. However, OCHPEE’s lack of strategic planning,
to formalize and integrate          identified goals, adequate measures, and quantifiable accomplishments result in
EPA’s efforts on behalf of          its inability to demonstrate its role and value added to the protection of
children. OCHP’s role is to         children’s health.
coordinate those efforts with
other government agencies, and      We believe that the unimplemented and agreed-to recommendations are still
to carry out Executive Order        valid. The Agency’s new five-point agenda for protecting children’s health
13045 and the National Agenda       requires a reevaluation of the role of OCHPEE, as well as a redefinition of its
to Protect Children’s Health        function and areas of responsibility within the Agency. If OCHPEE is unable
from Environmental Threats.         to demonstrate its impact on children’s health protection, the Agency
                                    leadership should evaluate whether these resources could be better used by
                                    other program offices that target children’s environmental health challenges.

                                     What We Recommend

                                    We recommend that the EPA Deputy Administrator implement agreed-to
                                    corrective actions, which include developing a strategic plan, improving annual
                                    planning, establishing measures, and reporting its results and outcomes toward
                                    meeting the Agency’s National Agenda to Protect Children’s Health from
                                    Environmental Threats; or devolve to other program offices the functions and
For further information, contact    resources of OCHPEE.
our Office of Congressional,
Public Affairs and Management
at (202) 566-2391.                  We also recommend that the Deputy Administrator verify that the current audit
                                    follow-up process is in compliance with EPA Manual 2750.
To view the full report,
click on the following link:        The Agency agreed with the recommendation. The Agency agreed to
www.epa.gov/oig/reports/2010/       implement the agreed-to corrective actions upon completion of the
20100405-10-P-0095.pdf
                                    reorganization of OCHPEE. The Agency also stated that the verification of the
                                    follow-up process has been completed.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                           April 5, 2010

MEMORANDUM

SUBJECT:	              Need Continues for a Strategic Plan to Protect Children’s Health
                       Report No. 10-P-0095


FROM:	                 Wade T. Najjum
                       Assistant Inspector General for Program Evaluation

TO:                    Bob Perciasepe
                       Deputy Administrator

                       Peter Grevatt
                       Director, Office of Children’s Health Protection and Environmental
                       Education


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $201,257.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 days. You should include a corrective actions plan for agreed-upon actions,
including milestone dates. We have no objections to the further release of this report to the
public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions, please contact me at 202-566-0827 or
najjum.wade@epa.gov, or Jeffrey Harris at 202-566-0831 or harris.jeffrey@epa.gov.
Need Continues for a Strategic Plan                                                                                         10-P-0095
to Protect Children’s Health


                                   Table of Contents 


Chapters 

   1     Introduction ........................................................................................................     1


                 Purpose .......................................................................................................   1

                 Background .................................................................................................      1          

                 Scope and Methodology..............................................................................               3

                 Prior Audit Coverage ...................................................................................          4


   2     Corrective Actions Not Implemented ..............................................................                         5      


                 OCHPEE Lacks a Strategic Plan.................................................................                    5

                 Annual Planning Process Has Not Improved ..............................................                           5

                 Corrective Actions Incorrectly Entered into MATS as Completed ...............                                     6

                 Conclusion...................................................................................................     7          

                 Recommendations .....................................................................................             7          

                 Agency Comments and OIG Evaluation .....................................................                          8


   Status of Recommendations and Potential Monetary Benefits..............................                                         9      




Appendices 

   A     Status of Agreed-to Corrective Actions ...........................................................                        10 


   B     Agency Comments on Draft Report ................................................................                          11 


   C     Distribution ........................................................................................................     13 

                                                                                                       10-P-0095 





                                          Chapter 1

                                           Introduction

Purpose
                 The purpose of this review was to evaluate the status of corrective actions taken
                 by the U.S. Environmental Protection Agency (EPA) in response to an Office of
                 Inspector General (OIG) report issued in 2004.1 Specifically, we sought to
                 determine whether:

                         •	 EPA has developed a coordinated strategy to meet the National
                            Agenda to Protect Children’s Health from Environmental Threats and
                            defined the role and function of the Office of Children’s Health
                            Protection and Environmental Education (OCHPEE) within the
                            Agency.

                         •	 OCHPEE has made improvements to its annual planning process and
                            performed an annual internal review of results or outcomes versus
                            planned activities.

Background
                 Children face significant and unique threats from environmental hazards and
                 industrial chemicals. These hazards range from air pollution and lead-based paint
                 in older homes to treatment-resistant microbes in drinking water. The Agency
                 announced the National Agenda to Protect Children’s Health from Environmental
                 Threats (National Agenda) in September 1996. On April 21, 1997, Presidential
                 Executive Order 13045, “Protection of Children from Environmental Health Risks
                 and Safety Risks,” directed federal agencies to place a high priority on protecting
                 children from environmental and safety risks, and ensure that their policies,
                 programs, activities, and standards address disproportionate risks to children. The
                 Office of Children’s Health Protection (OCHP) was established in 1997 to
                 formalize and integrate EPA’s efforts on behalf of children. OCHP’s role was to
                 coordinate Agency efforts with other government agencies and to carry out


1
 EPA OIG, The Effectiveness of the Office of Children’s Health Protection Cannot Yet Be Determined
Quantitatively, Report No. 2004-P-00016, May 17, 2004. The status of agreed-to recommendations is in
Appendix A.




                                                       1

                                                                                10-P-0095


Executive Order 13045 and the National Agenda. Key Agency actions regarding
children’s health are illustrated in Table 1-1.

Table 1-1: Key Actions Taken by EPA Regarding Children’s Health
 1995: EPA issued Agency-wide policy to ensure that EPA consistently
 and explicitly evaluates environmental health risks of infants and children.

 1996: EPA announced National Agenda to Protect Children’s Health
 from Environmental Threats, in which the Agency called for a national
 commitment to ensure a healthy future for children.

 1997: EPA established Office of Children’s Health Protection to
 formalize and integrate the Agency’s efforts on behalf of children.

 1998: Office of Research and Development initiated Children’s Health
 Research Program to conduct research and provide methods to reduce
 uncertainties in EPA risk assessments for children.

 2002: OCHP named lead for Agency’s Aging Initiative, making the
 protection of the health of older persons a new priority of the Agency and
 OCHP.

 2006: Environmental Education Division added under the direction of
 OCHP. OCHP becomes OCHPEE.

 2009: OCHPEE in process of being reorganized. The Aging function
 and the Environmental Education Division will be moved to the Office of
 Public Affairs. According to the Director of the Office of Executive
 Services, the formal process is underway and is expected to be finalized in
 2010. Once completed, OCHPEE’s sole goal will be to protect children’s
 environmental health.
Source: OIG.

The scope of OCHP’s mission expanded when the environmental education
function was added in FY 2006. OCHPEE’s current mission is “to make the
health protection of children and the aging a fundamental goal of public health
and environmental protection in the United States and around the world.”
OCHPEE’s goal is that:

        Every individual, government agency, corporation,
        community, and organization will: 1) understand the link
        between children’s health and the environment; and 2) take
        positive action to improve children’s environmental
        health.

To meet its mission and goal, OCHPEE supports and facilitates EPA’s efforts to
protect children from environmental health threats. The Agency’s funding for
children and other sensitive populations for Fiscal Years 2004 through 2009 is
illustrated in Figure 1-1.



                                    2

                                                                                  10-P-0095 





          Figure 1-1: Agency Budget for Children & Other Sensitive Populations,
          Fiscal Years 2004-2009




               $6,400,000
               $6,200,000
               $6,000,000
               $5,800,000
               $5,600,000
               $5,400,000
               $5,200,000
                            2004   2005    2006       2007   2008   2009
                                               Fiscal Year


          Source: OIG.



Scope and Methodology
         We conducted this performance evaluation in accordance with generally accepted
         government auditing standards. Those standards require that we plan and perform
         the evaluation to obtain sufficient, appropriate evidence to provide a reasonable
         basis for our findings and conclusions based on our objectives. We believe that
         the evidence obtained provides a reasonable basis for our findings and
         conclusions based upon our objectives. We performed our follow-up evaluation
         from August 2009 through February 2010.

         We reviewed the status of the implementation of agreed-to corrective actions
         from our previously issued report. Our review focused on the four
         recommendations related to improving OCHPEE’s role and presence within the
         Agency, as well as its annual and strategic planning processes. Specifically, the
         scope of our review included a review of recommendations 2-1, 2-2, 3-1, and 3-2.

         To complete our review, we met with OCHPEE’s director and staff and analyzed
         support documents to determine the status of implementation of the report’s
         recommendations. We also spoke with other internal and external stakeholders,
         including the Director of the Office of Executive Services. We reviewed EPA’s
         Audit Management Process Manual 2750 and discussed the report’s final action
         data with the Audit Follow-up Coordinator.




                                          3

                                                                                    10-P-0095 



Prior Audit Coverage
          The OIG initiated a series of reviews in 2002 to determine how the EPA planned,
          prioritized, coordinated, implemented, and evaluated activities related to
          children’s health protection and the environment. During this review, we sought
          to determine:

               • EPA’s agenda for fostering children’s health and how OCHP ensures its
                 achievement
               • The impediments to OCHP ensuring the achievement of the Agency’s
                 National Agenda to Protect Children’s Health from Environmental Threats
               • How well OCHP planned and coordinated children’s health activities
                 within the Agency

          While OCHP was responsible for implementing the National Agenda, it was not
          directly responsible for many of the goals outlined in the National Agenda.
          OCHP’s mission was not a task that could have been undertaken in isolation; a
          full and active partnership with stakeholders was needed. However, we found
          that there was no overall, coordinated strategy integrating children’s
          environmental health efforts into the Agency as a whole and no active
          communication process in place among the program offices and OCHP. Further,
          at the time of our report issuance in 2004, OCHP had been without a permanent
          director since April 2002. We recognized that the lack of a permanent director
          could have a negative impact on OCHP’s ability to collaborate and partner with
          stakeholders, which was necessary to implement the National Agenda.

          We found that OCHP had no formal mechanism in place to ensure performance
          results or assess the relationships between program costs, activities, and results.
          OCHP had a strategic planning process that included an annual office planning
          meeting followed by a mid-year meeting to assess the status of the current year’s
          plan and to begin consideration of potential focus areas for the following year.
          However, there was no formal tracking to ensure that goals set at these meetings
          were met. More specifically, data and information systems were not available to
          measure, analyze, and demonstrate overall performance specific to the National
          Agenda on a continuing basis.

          We issued several recommendations to the then-Acting Deputy Administrator to
          improve OCHP’s role and presence within the Agency, as well as OCHP’s annual
          and strategic planning processes. The Agency concurred with our
          recommendations that OCHP develop a strategic plan and improve its annual
          planning process.




                                            4

                                                                                10-P-0095 





                              Chapter 2

          Corrective Actions Not Implemented

         OCHPEE did not implement the agreed-to corrective actions from the previous
         OIG report. OCHPEE prepared a draft strategic plan; however, it was never
         completed. Additionally, OCHPEE has neither made substantial changes in the
         annual planning process, nor incorporated measures to track outputs or outcomes,
         as recommended. The Office of the Administrator’s audit management follow-up
         process did not follow the prescribed policy, which contributed to the corrective
         actions not being completed. Five years later, most of these agreed-to corrective
         actions have not been implemented, though they continue to be both relevant and
         valid to OCHPEE.

OCHPEE Lacks a Strategic Plan

         OCHPEE does not have a strategic plan, nor has it developed a coordinated
         strategy, to meet the National Agenda as we recommended in 2004. OCHPEE
         developed a draft strategic plan in early 2005 in direct response to our
         recommendation; however, it was never completed or finalized. The 2005 draft is
         now outdated and not reflective of the current environment of the office. For
         example, the addition of the Environmental Education Division in 2006 was not
         incorporated. Additionally, the 2005 draft does not reflect the new OCHPEE
         Director’s “Five Point Agenda for Children’s Environmental Health,” issued on
         July 28, 2009.

Annual Planning Process Has Not Improved
         OCHPEE did not implement the recommendations to improve and enhance its
         annual planning process. The report contained these recommendations to
         improve and enhance the annual planning process:

            •	 Establishing measures for project completion
            •	 Identifying quantifiable goals and targets
            •	 Planning for potential resources use
            •	 Establishing a methodology for prioritizing resources to problems posing
               greatest risks to children
            •	 Performing an annual review of results or outcomes compared to planned
               activities

         The completion of these recommendations would have brought OCHPEE into
         compliance with the requirements of Government Performance Results Act of



                                         5

                                                                                                        10-P-0095 



                 1993 (GPRA).2 GPRA Section 4 provides instructions for Annual Performance
                 Plans and Reports. OCHPEE staff advised that their annual planning process has
                 remained largely unchanged and the agreed-to corrective actions were not
                 implemented.

                 After the 2004 OIG report was issued, OCHPEE experienced several changes in
                 leadership. Because of these changes, momentum for implementing the
                 recommendations was lost. The current office director believes the
                 recommendations are still valid and relevant.

Corrective Actions Incorrectly Entered into MATS as Completed
                 Contrary to EPA’s Audit Management Process Manual (EPA Manual 2750), the
                 EPA Action Official and the Audit Follow-up Coordinator entered into the
                 Management Audit Tracking System (MATS) that corrective actions were
                 completed, though some remained open. EPA Manual 2750 specifies the
                 documentation requirements and staff responsibilities regarding entering this
                 report in MATS with a final action date.3 The principal objectives of EPA
                 Manual 2750 are to detail the process by which:

                               1.	 EPA officials4 respond to OIG reports
                               2.	 OIG and EPA officials resolve findings and recommendations
                                   contained in reports
                               3.	 EPA officials implement follow-up corrective actions

                 The Action Official did not certify that the actions and milestone dates were
                 achieved as required by EPA Manual 2750. The Action Official sent an e-mail
                 authorizing the Audit Follow-up Coordinator to enter the final action date into
                 MATS. In the e-mail, the Action Official stated, “ . . . I believe we don’t have
                 any additional follow-up on this.” The Action Official also stated in the e-mail
                 that the Inspector General was briefed on the strategic plan and how the plan
                 responded to a number of the recommendations. A briefing, however, is
                 insufficient to verify that corrective actions have been completed. Nonetheless, a
                 final action date was entered into MATS in 2005.
2
  GPRA requires federal agencies, including EPA, to prepare performance plans containing annual performance
goals and measures to help move them toward managing for results. Performance measurement is the monitoring
and reporting of program accomplishments, particularly progress toward pre-established goals. Performance
measures may address the type of program activities conducted, the direct products and services delivered by a
program (outputs), and the results of those products and services (outcomes). Effective performance measurement
enables an agency to establish baselines; identify and prioritize problems; and evaluate, manage, and improve
programs.
3
  The final action date indicated the completion and documentation of all actions specified in the Management
Decision.
4
  The Action Official is responsible for implementing the corrective actions and meeting the milestone dates
contained in the OIG-accepted Management Decision. The Action Official keeps documentation on the
implementation of corrective actions. Chapter 2 of EPA Manual 2750 provides that the Audit Follow-up
Coordinator’s duties are to maintain documentation from the Action Official confirming that corrective actions are
complete and for maintaining the Action Official’s certification that corrective actions are complete.


                                                         6

                                                                                  10-P-0095 



        The Action Official did not certify in the e-mail that actions were complete. Not
        complying with the audit follow-up process requirements contributed to the
        corrective actions not being implemented but reported as complete. The Audit
        Follow-up Coordinator advised that the process changed within the last 2 years
        and the follow-up process is now in compliance with EPA Manual 2750.

Conclusion
        Five years after providing OCHPEE with recommendations related to the strategic
        and annual planning processes, the corrective actions were not completed. If
        these corrective actions were implemented, OCHPEE would be able to
        demonstrate, on an annual basis, its impact on the protection of children’s health.
        The lack of strategic planning, identified goals, adequate measures, and
        quantifiable accomplishments result in OCHPEE’s inability to demonstrate its
        role and value added to the protection of children’s health.

        We believe that the unimplemented and agreed-to recommendations are still
        valid. The Agency’s new five-point agenda for protecting children’s health
        requires reevaluating the role of OCHPEE, as well as redefining its function and
        areas of responsibility within the Agency. If OCHPEE is unable to demonstrate
        its impact on improving children’s health protection, the Agency leadership
        should evaluate whether these resources could be better used by program offices
        that have activities that target children’s environmental health challenges.

Recommendations

        We recommend that the EPA Deputy Administrator:

        2-1. 	 Implement agreed-to corrective actions from Report No. 2004-P-00016,
               which include developing a strategic plan, improving annual planning,
               establishing measures, and reporting its results and outcomes toward
               meeting the Agency’s National Agenda to Protect Children’s Health from
               Environmental Threats; or devolve to other program offices the functions
               and resources of the Office of Children’s Health Protection and
               Environmental Education.

        2-2. 	 Verify the current audit follow-up process is in compliance with EPA
               Manual 2750 as follows:

               a. 	 Action Officials ensure that corrective actions are documented,
                    tracked, and implemented; and certify that corrective actions are
                    complete.

               b.	 Audit Follow-up Coordinators maintain official files containing the
                   record of management decisions and certifications of completed
                   corrective actions.


                                         7

                                                                                 10-P-0095 



Agency Comments and OIG Evaluation

         EPA concurred with each of the recommendations. The Agency stated that upon
         completion of a reorganization of OCHPEE, it will implement recommendation
         2-1 which fully addresses the intent of the recommendation. The Agency also
         stated that the verification of the follow-up process called for in recommendation
         2-2 has been completed. We consider recommendation 2-2 closed. The Agency’s
         complete response is included in Appendix B.




                                         8

                                                                                                                                    10-P-0095




                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                          POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                        BENEFITS (in $000s)

                                                                                                              Planned
    Rec.    Page                                                                                             Completion   Claimed    Agreed To
    No.      No.                          Subject                          Status1      Action Official         Date      Amount      Amount

    2-1       7     Implement agreed-to corrective actions from              O        Deputy Administrator
                    Report No. 2004-P-00016, which include
                    developing a strategic plan, improving annual
                    planning, establishing measures, and reporting its
                    results and outcomes toward meeting the Agency’s
                    National Agenda to Protect Children’s Health from
                    Environmental Threats; or devolve to other
                    program offices the functions and resources of the
                    Office of Children’s Health Protection and
                    Environmental Education.

    2-2       7     Verify the current audit follow-up process is in         C        Deputy Administrator     3/5/10
                    compliance with EPA Manual 2750 as follows:
                    a. Action Officials ensure that corrective actions
                       are documented, tracked, and implemented;
                       and certify that corrective actions are complete.
                    b. Audit Follow-up Coordinators maintain official
                       files containing the record of management
                       decisions and certifications of completed
                       corrective actions.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                 9

                                                                                                              10-P-0095


                                                                                                         Appendix A
                   Status of Agreed-to Corrective Actions
           Recommendation                      Agreed-to Corrective Action               Status of Corrective Action
2-1: Develop a coordinated strategy        The Agency responded that it was            Implementation incomplete. A
that ties specific measures, milestones,   working to refine OCHP’s strategic          draft strategic plan was developed
and targets toward meeting the             plan and to develop strategic targets       in 2005; however, it was not
Agency’s National Agenda to Protect        and performance measures that would         finalized. Additionally, the draft
Children’s Health from Environmental       largely track with the National Agenda.     plan does not incorporate the
Threats.                                                                               newly developed five-point agenda
                                                                                       for the Agency regarding
                                                                                       protecting children’s health and
                                                                                       does not reflect the addition of the
                                                                                       Environmental Education Division
                                                                                       in 2006.
2-2: Reevaluate the role of OCHP and       EPA leadership agreed to reiterate the      Initiated in the development of the
redefine its function and areas of         role of OCHP to EPA senior managers         draft strategic plan. However, over
responsibility within the Agency.          so that OCHP can continue to be an          the last 8 years, the responsibilities
                                           effective participant in all of the         and areas of focus have changed
                                           Agency’s programs that affect children.     three times.
3-1: Make improvements to its annual       The Agency agreed to continue to            Not fully implemented. The
planning process to include, at a          revise its strategic plan, which would      strategic plan was not finalized.
minimum:                                   be used to guide OCHP’s decisions and       Strategic targets for many of the
  a. More complete and measurable          resource allocation. The Agency             measures are still identified as “to
  details on how planned activities are    advised that OCHP would work with           be determined.” No changes or
  projected to be completed,               an expert consultant to develop             improvements were made to the
  identifying quantifiable attainable      quantitative measures for each strategic    annual planning process.
  goals and targets;                       target. The results of both of these
                                           activities were to be used to inform
  b. A plan of what potential resources,
                                           decisions and priority setting on an
  either internally within OCHP or
                                           annual basis.
  externally within EPA or other
  stakeholders, are to be used;
  c. Projected allocations of these
  resources and what the end products
  will be; and
  d. A methodology to set priorities to
  ensure resources are being allocated
  to those problems that pose the
  greatest environmental risks to
  children, recognizing that OCHP has
  limited resources.
3-2: Perform an annual internal review     The Agency agreed to include a review       Not implemented. No such
of results or outcomes versus planned      and analysis of the strategic targets and   reviews were conducted.
activities.                                projects in the annual planning process
                                           to determine whether the results and
                                           outcomes identified have been met, and
                                           if not, why and whether additional
                                           efforts are required to meet them; and
                                           lessons learned. The Agency also
                                           agreed to work with a consultant to
                                           develop measures for each target.
 Source: OIG.



                                                            10
                                                                                        10-P-0095 



                                                                                   Appendix B

                  Agency Comments on Draft Report
           The response from the Deputy Administrator was received on March 5, 2010.


MEMORANDUM

SUBJECT: 	     Draft Evaluation Report: The Need Continues for a Strategic Plan to Protect
               Children’s Health

FROM:          	Robert Perciasepe
               Deputy Administrator

TO:    	       Jeffrey Harris
               Office of the Inspector General
               Director for Program Evaluation, Cross Media Issues


       We appreciate the work of the Inspector General’s office (OIG) in preparing draft
Evaluation Report No. 2009-947 “The Need Continues for a Strategic Plan to Protect Children’s
Health”. The report is factually accurate in that the Office of Children’s Health Protection and
Environmental Education currently lacks a strategic plan and additional enhancements to the
annual planning process are necessary in order to be fully responsive to the recommendations in
OIG’s 2004 report on children’s health at EPA.

       EPA concurs with the recommendations in the draft report:

       2-1. Implement agreed-to corrective actions from Report No. 2004-P-00016, which
              include developing a strategic plan, improving annual planning, establishing
              measures, and reporting its results and outcomes toward meeting the Agency’s
              National Agenda to Protect Children’s Health from Environmental Threats; or
              devolve to other program offices the functions and resources of the Office of
              Children’s Health Protection and Environmental Education.

       2-2. Verify the current audit follow-up process is in compliance with EPA Manual 2750
              as follows:
                      a. Action Officials ensure that corrective actions are documented, tracked,
                          and implemented; and certify that corrective actions are complete.
                      b. Audit Follow-up Coordinators maintain official files containing the
                          record of management decisions and certifications of completed
                          corrective actions.




                                               11 

                                                                                         10-P-0095 



       As indicated in the draft report, EPA is currently in the process or reorganizing the Office
of Children’s Health Protection and Environmental Education. Upon completion of the
reorganization, EPA will implement recommendation 2-1 in the draft report.

       EPA has verified that recommendation 2-2 has been completed. Action Officials in the
Administrator’s Office ensure that corrective actions are documented, tracked, and implemented;
and certify that corrective actions are complete. Audit Follow-up Coordinators in the
Administrator’s office also maintain official files containing the record of management decisions
and certifications of completed corrective actions.

       We look forward to receiving your final report.




cc:    Peter Grevatt, OCHPEE




                                                12 

                                                                                 10-P-0095


                                                                               Appendix C

                                     Distribution

Office of the Administrator
Deputy Administrator
Director, Office of Children’s Health Protection and Environmental Education
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of the Administrator
Acting Inspector General




                                              13 

